No. ______
IN THE

Supreme Court of the United States
RAMON HUESO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
CERTIFICATE OF SERVICE
I, Matthew S. Hellman, hereby certify that I am a member of the Bar of this
Court, and that I have this 8th day of June 2020, caused a paper copy of the Petition for
a Writ of Certiorari to be delivered to the Court and an electronic version of the
document to be delivered to:
Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for United States, et al.

/s/ Matthew S. Hellman
Matthew S. Hellman

